Supreme Court, U.S.
FILED

OCT 1 0 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-324

Technology Properties Limited LLC, et al.

Huawei Technologies Co., Ltd., et a

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Nintendo of America Inc.
Nintendo Co., Ltd.
I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar mem
Signature
Date.

October 10, 019

(Type or print) Name

Matthew J. Brigham
S Mr.

Firm

❑ Mrs.

❑ Miss

Cooley LLP

Address

3175 Hanover Street

City & State
Phone

El Ms.

Palo Alto, CA

650-843-5000

Zip
Email

94304

mbrigham@cooley.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Denise M. De Mory, Bunsow De Mory LLP

RECEIVED
OCT 1 5 2019
OFFICE OF THE CLERK
SUPREME COURT U.S

